UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
ATLANTA REGIONAL OFFICE
GREGORY TURNER,
Appellant,

DOCKET NUMBER
AT-3330-20-0125-I-1

v.
UNITED STATES POSTAL SERVICE,
Agency.

DATE: March 2, 2020

Gregory Turner. Memphis, Tennessee, pro se.
Cynthia R. Allen. Memphis, Tennessee, for the agency.
Managing Counsel. Philadelphia, Pennsylvania, for the agency.
BEFORE
Brian Bohlen
Administrative Judge
INITIAL DECISION
On November 17, 2019, the appellant, Gregory Turner, filed the abovecaptioned appeal alleging that his rights as a veteran were violated by the agency,
in violation of the Veterans Employment Opportunities Act (VEOA), 5 U.S.C. §
3330a. For the reasons explained below, the appeal is dismissed because the
appellant earlier raised and withdrew the same claim, which was dismissed with
prejudice within MSPB Docket No. AT-3330-17-0026-1-1 on December 21, 2016.

A rm&x

2

JURISDICTION
Background Facts Bearing on Jurisdiction
Within the appellant’s initial appeal, he stated that he was denied veterans
preference effective November 18, 2019, though he did not say exactly how. See
Initial Appeal File (IAF), Tab 4, p. 3. He also indicated on the next page of his
appeal that he had not filed a complaint with the Department of Labor concerning
his claims, and he answered “NOT APPLICABLE” to the question whether the
Department of Labor (DOL) had notified him that his USERRA or VEOA
complaint could not be resolved. Id., p. 4. Within the narrative portion of his
appeal he also stated,
I have been escorted out of the workplace for not Accepting the last
Job offer from the Office of Worker’s Compensation. The United
States Postal Service has violated my Protective rights under
Veterans Employment Opportunity Act of 1998. The Office of
Personnel Management rules under Adverse Actions said Preference
Eligibles has Protection Against Adverse Actions.
On November 20, 2019, I issued a Jurisdiction Order to the parties
concerning VEOA appeals. IAF, Tab 3. The Order explained that the Board has
jurisdiction over two types of VEOA appeals and directed the appellant to explain
the Board’s jurisdiction within VEOA over his claims, with relevant supporting
evidence. The appellant’s response to this Order documented that he is a military
veteran, and that he previously complained to DOL in September, 2016, that the
U.S. Postal Service had removed him from his position as a letter carrier without
proper adverse action procedures in violation of his rights as a veteran. See IAF,
Tab 6, p. 4. He provided a copy of the closure letter from DOL dated September
20, 2016, and he tendered a copy of a DOL Form 1010 complaint he sent to DOL
on October 15, 2019.

Within the narrative section of this Form 1010, the

appellant clarified:
I contacted my Employer the U.S. Postal Service in August 2019 to
discuss how many years they will keep me out of the work place and
why I haven't heard from them concerning anything. I was order to
leave the U.S. Postal Service in September 2014. It has been 5 yrs.

3

The U.S. Postal Service refuse to charge me so I can exercise my
rights to due process to resolve whatever the situation is. I am a 30%
Service Connected Disabled Veteran. I want to use my rights under
the Veterans Preference Act of 1944.
This is a Prohibited Personnel violation. The Office of Personnel
Management clearly states than any ADVERSE ACTIONS says this.
Preference eligibles have protections against adverse actions,
including demotion, suspension for more than 14 days, furlough for
30 days or less, and removal. These protections include advance
notice a reasonable time to respond, representation by an attorney or
other person, a final written decision, and an appeal right to Merit
Systems Protection.
IAF, Tab 6, p. 18.
Based on the appellant’s explanation of his claim, I find that this appeal
must be dismissed because the same matter was previously raised and withdrawn
by the appellant within MSPB Docket No. AT-3330-17-0026-1-1.

In MSPB

Docket No. AT-333-17-0026-I-1, the appellant claimed that he was denied
veterans’ preference in violation of VEOA, and enclosed the same September 20,
2016 closure letter from DOL as he provided in the present appeal. The matter
was later further clarified as a claim that the appellant’s veteran’s preference
rights were violated through the agency failing to return him to work following
an on-the-job injury.

This is the identical issue that the appellant is now

attempting to litigate through the present appeal,

DOL closed its the

investigation because the appellant did not provide it with documentation
showing that he was preference eligible, and because the VEOA does not apply to
issues covered by the Federal Employees Compensation Act (FECA), including a
failure to restore an employee to work following a FECA covered workplace
injury. See MSPB Docket No AT-3330-17-0026-1-1, Tab 6.
The administrative judge assigned to adjudicate MSPB Docket No. AT3330-17-0026-1-1 issued two VEOA Jurisdiction Orders. Rather than address the
jurisdictional issues identified within these Orders, the appellant requested to
withdraw his appeal. See MSPB Docket No AT-3330-17-0026-1-1, Tab 8. The

4

administrative judge promptly issued an Order on December 6, 2016, which
explained that if the appeal was withdrawn, that it would be an act of finality that
it would permanently remove the issues within the appeal from the Board’s
jurisdiction. She then explained,
The appellant is free to withdraw his appeal; however, he is hereby
put on notice that the withdrawal of an appeal is an act of finality
that removes the appeal from the Board’s jurisdiction. See Wilson v.
United States Postal Service, 41 M.S.P.R. 628, 629 (1989). The
Board will give effect to an appellant’s withdrawal of an appeal and,
in the absence of unusual circumstances such as misinformation or
new and material evidence, it will not reinstate an appeal once it has
been withdrawn merely because an appellant now wishes to proceed
before the Board. Dixon v. Office of Personnel Management, 44
M.S.P.R.331, 335 (1990).
Unless the appellant notifies that me in a writing to be received no
later December 13, 2016, that he does not wish to withdraw his
appeal, I will dismiss the appeal as withdrawn, with prejudice to
refiling regarding the same issue. If the appellant should decide he
does not wish to withdraw his appeal, he must comply with my
November 8, 2016 Order to establish that the Board has jurisdiction
over his VEOA appeal, and his response to that order must be
received no later than December 13, 2016. If the appellant fails to
respond to the instant order, his appeal will be dismissed as
withdrawn, with prejudice to refiling. (Emphasis in original)
The administrative judge assigned in the above-cited case issued an Initial
Decision on December 21, 2016 dismissing the appeal with prejudice as
withdrawn. Within that Initial Decision, the administrative judge noted that the
appellant had not responded to her earlier Order, quoted above. The appellant did
not appeal that Initial Decision which became the final decision of the Board
several years ago.
The appellant through the present appeal seeks to relitigate the same VEOA
issues he withdrew in December, 2016, and which were dismissed with prejudice
by the Board on December 21, 2016.

As the administrative judge who

adjudicated that prior appeal properly explained, withdrawal of an appeal is an

5
act of finality which permanently removes the matter from the Board’s
consideration.
DECISION
The appeal is DISMISSED.

FOR THE BOARD:

/S/
Brian Bohlen
Administrative Judge

NOTICE TO APPELLANT
This initial decision will become final on April 6. 2020. unless a petition
for review is filed by that date. This is an important date because it is usually the
last day on which you can file a petition for review with the Board. However, if
you prove that you received this initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30 days after the date you
actually receive the initial decision. If you are represented, the 30-day period
begins to run upon either your receipt of the initial decision or its receipt by your
representative, whichever comes first. You must establish the date on which you
or your representative received it. The date on which the initial decision becomes
final also controls when you can file a petition for review with one of the
authorities discussed in the “Notice of Appeal Rights” section, below. The
paragraphs that follow tell you how and when to file with the Board or one of
those authorities. These instructions are important because if you wish to file a
petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.

6
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing. A petition submitted by
electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https ://e-appeal.mspb. gov).
NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is composed of three
members, 5 U.S.C. § 1201, but currently there are no members in place. Because a
majority vote of the Board is required to decide a case, see 5 C.F.R. § 1200.3(a),
(e), the Board is unable to issue decisions on petitions for review filed with it at
this time. See 5 U.S.C. § 1203. Thus, while parties may continue to file petitions
for review during this period, no decisions will be issued until at least two
members are appointed by the President and confirmed by the Senate. The lack of
a quorum does not serve to extend the time limit for filing a petition or cross
petition. Any party who files such a petition must comply with the time limits
specified herein.
For alternative review options, please consult the section below titled
“Notice of Appeal Rights,” which sets forth other review options.
Criteria for Granting a Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in

7

which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:
(a) The initial decision contains erroneous findings of material fact. (1)
Any alleged factual error must be material, meaning of sufficient weight to
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge’s credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge’s rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner’s due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition
for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and 1-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of

8

authorities, attachments, and certificate of service. A request for leave to file a
pleading that exceeds the limitations prescribed in this paragraph must be
received by the Clerk of the Board at least 3 days before the filing deadline. Such
requests must give the reasons for a waiver as well as the desired length of the
pleading and are granted only in exceptional circumstances. The page and word
limits set forth above are maximum limits. Parties are not expected or required to
submit pleadings of the maximum length. Typically, a well-written petition for
review is between 5 and 10 pages long.
If you file a petition or cross petition for review, the Board will obtain the
record in your case from the administrative judge and you should not submit
anything to the Board that is already part of the record. A petition for review
must be filed with the Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is received by you or your
representative more than 5 days after the date of issuance, 30 days after the date
you or your representative actually received the initial decision, whichever was
first. If you claim that you and your representative both received this decision
more than 5 days after its issuance, you have the burden to prove to the Board the
earlier date of receipt. You must also show that any delay in receiving the initial
decision was not due to the deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or under penalty of perjury (see 5
C.F.R. Part 1201, Appendix 4) to support your claim. The date of filing by mail
is determined by the postmark date. The date of filing by fax or by electronic
filing is the date of submission. The date of filing by personal delivery is the
date on which the Board receives the document. The date of filing by commercial
delivery is the date the document was delivered to the commercial delivery
service. Your petition may be rejected and returned to you if you fail to provide
a statement of how you served your petition on the other party. See 5 C.F.R.
§ 1201.4(j). If the petition is filed electronically, the online process itself will
serve the petition on other e-filers. See 5 C.F.R. § 1201.14(j)(l).

9
A cross petition for review must be filed within 25 days after the date of
service of the petition for review.
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE OF APPEAL RIGHTS
You may obtain review of this initial decision only after it becomes final,
as explained in the “Notice to Appellant” section above. 5 U.S.C. § 7703(a)(1).
By statute, the nature of your claims determines the time limit for seeking such
review and the appropriate forum with which to file.

5 U.S.C. § 7703(b).

Although we offer the following summary of available appeal rights, the Merit
Systems Protection Board does not provide legal advice on which option is most
appropriate for your situation and the rights described below do not represent a
statement of how courts will rule regarding which cases fall within their
jurisdiction. If you wish to seek review of this decision when it becomes final,
you should immediately review the law applicable to your claims and carefully
follow all filing time limits and requirements,

Failure to file within the

applicable time limit may result in the dismissal of your case by your
chosen forum.
Please read carefully each of the three main possible choices of review
below to decide which one applies to your particular case. If you have questions
about whether a particular forum is the appropriate one to review your case, you
should contact that forum for more information.
(1) Judicial review in general. As a general rule, an appellant seeking
judicial review of a final Board order must file a petition for review with the U.S.
Court of Appeals for the Federal Circuit, which must be received by the court

10
within 60 calendar days of the date this decision becomes final.

5 U.S.C.

§ 7703(b)(1)(A).
If you submit a petition for review to the U.S. Court of Appeals for the
Federal

Circuit,

you

must

submit your petition to

the

court

at the

following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
(2) Judicial

or

EEOC

review

of cases

involving

a

claim

of

discrimination. This option applies to you only if you have claimed that you
were affected by an action that is appealable to the Board and that such action
was based, in whole or in part, on unlawful discrimination. If so, you may obtain
judicial review of this decision—including a disposition of vour discrimination
claims—by filing a civil action with an appropriate U.S. district court {not the
U.S. Court of Appeals for the Federal Circuit), within 30 calendar days after this
decision becomes final under the rules set out in the Notice to Appellant section,
above.
582 U.S.

5 U.S.C. § 7703(b)(2); see Perry v. Merit Systems Protection Board,
, 137 S. Ct. 1975 (2017). If the action involves a claim of

11
discrimination based on race, color, religion, sex, national origin, or a disabling
condition, you may be entitled to representation by a court-appointed lawyer and
to waiver of any requirement of prepayment of fees, costs, or other security. See
42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be found at their respective
websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx.
Alternatively, you may request review by the Equal Employment
Opportunity Commission (EEOC) of your discrimination claims only, excluding
all other issues. 5 U.S.C. § 7702(b)(1). You must file any such request with the
EEOC’s Office of Federal Operations within 30 calendar days after this decision
becomes final as explained above. 5 U.S.C. § 7702(b)(1).
If you submit a request for review to the EEOC by regular U.S. mail, the
address of the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 77960
Washington, D.C. 20013
If you submit a request for review to the EEOC via commercial delivery or
by a method requiring a signature, it must be addressed to:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, N.E.
Suite 5SW12G
Washington, D.C. 20507
(31 Judicial

review

pursuant

to

the

Whistleblower

Protection

Enhancement Act of 2012. This option applies to you only if you have raised
claims of reprisal for whistleblowing disclosures under 5 U.S.C. § 2302(b)(8) or
other protected activities listed in 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D).
If so, and your judicial petition for review “raises no challenge to the Board's
disposition of allegations of a prohibited personnel practice described in section

12
2302(b) other than practices described in section 2302(b)(8) or 2302(b)(9)(A)(i),
(B), (C), or (D),” then you may file a petition for judicial review with the U.S.
Court of Appeals for the Federal Circuit or any court of appeals of competent
jurisdiction. The court of appeals must receive your petition for review within
60 days of the date this decision becomes final under the rules set out in the
Notice to Appellant section, above. 5 U.S.C. § 7703(b)(1)(B).
If you submit a petition for judicial review to the U.S. Court of Appeals for
the Federal Circuit, you must submit your petition to the court at the
following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
Contact information for the courts of appeals can be found at their
respective websites, which can be accessed through the link below:
httn://www.uscourts.sov/Court Locator/CourtWebsites.aspx

uase: iai-ioou

uocument: 3b

page: i

t-nea: uz/uh/zuzi

' /r.

NOTE: This disposition is nonprecedential.

Untteb States Court of Appeals
for tfje Jfebcral Circuit
GREGORY TURNER,
Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD,
Respondent
2020-1650
Petition for review of the Merit Systems Protection
Board in No. AT-3330-20-0125-I-1.
Decided: February 8, 2021
Gregory Turner, Memphis, TN, pro se.
DeAnna Schabacker, Office of General Counsel
United States Merit Systems Protection Board, Washing­
ton, DC, for respondent. Ala) represented by TRISTAN L.
Leavitt, Katherine Michelle Smith.
Before DYK, MAYER, and CHEN, Circuit
Per Curiam.

M-mtux
v

V-»CU>C. c.\j- 1UUU

LyUUUIIICIIl. <3<3

r aye. e.

2

I lieu. \jc.i\joic.\je. i

TURNER V. MSPB

Gregory Turner seeks review of a final decision of the
Merit Systems Protection Board (“Board”) that dismissed
his appeal for lack of jurisdiction. We affirm,.

Background
Mr. Turner is a partially disabled veteran. He was em­
ployed by the United States Postal Service as a city carrier
beginning 1986. He suffered an on-the-job injury in 2006.
He ceased working at the Postal Service in 2015 and is not
now being compensated. He has apparently rejected the
Postal Service’s offers that would permit him to return to
work with modified duty assignments.
On September 12, 2016, Mr. Turner filed a complaint
with the Department of Labor, alleging that the United
States Postal Service had violated his rights as a disabled
veteran under the Veterans Employment Opportunities
Act of 1998 by not reemploying him after 2015. In a letter
dated September 20, 2016, the Department of Labor in­
formed Mr. Turner that his case had been closed and that
he could appeal to the Board. The letter stated:
This is to inform you that our investigation has de­
termined that you do not meet the eligibility re­
quirements of the applicable provisions of veterans’
preference statutes and regulations under Title 5,
U.S. Code. Therefore, we are closing your case.
Although we have made this determination, you
have the right to appeal your case to the Merit Sys­
tems Protection Board (MPSB) within 15 calendar
days from the date of receipt of this letter.
SAppx 61.1

“SAppx” refers to the appendix attached to the gov­
ernment’s response brief.
i

uase: zu-iuou

TURNER V. MSPB

uocumeni: m

rage: u

mea: uif/uu/^u^i

3

On October 5, 2016, Mr. Turner filed an appeal with
the Board and attached the letter from the Department of
Labor dated September 20, 2016.2 On October 18, 2016,
the administrative judge presiding over Mr. Turner’s ap­
peal determined that he had not established jurisdiction
and ordered Mr. Turner to provide information to establish
that the Board had jurisdiction over his appeal under the
Veterans Employment Opportunities Act. On October 22,
2016, Mr. Turner responded by filing certain documents.
On November 8, 2016, the administrative judge issued an­
other order, again finding that jurisdiction had not been
established and requesting information from Mr. Turner to
establish the Board’s jurisdiction. On November 15, 2016,
Mr. Turner requested that his appeal be withdrawn, stat­
ing that he was “requesting withdrawal at this time” be­
cause he felt “that it will become at time to file this action
in the future [sic].” SAppx 55.
On December 6, 2016, in an “Order Regarding the Ap­
pellant’s Request to Withdraw His Appeal,” the adminis­
trative judge presiding over Mr. Turner’s appeal
acknowledged that Mr. Turner had “requested to withdraw
his appeal stating that he might refile it in the future.” Id.
at 53. The administrative judge stated that Mr. Turner
was “hereby put on notice that the withdrawal of an appeal
is an act of finality that removes the appeal from the
Board’s jurisdiction,” and, “in the absence of unusual cir­
cumstances such as misinformation or new and material
evidence, [the Board would] not reinstate an appeal once it
has been withdrawn merely because an appellant now

2 The government refers to Docket No. AT-0353-160826-1-1 as the docket number for Mr. Turner’s 2016 ap­
peal. However, the filings included in the appendix at­
tached to the government’s response brief indicate that
Mr. Turner’s 2016 appeal was assigned Docket Number
AT-3330-17-0026-1-1.

OClStJ. c\j- I OOU

4

uuuumeiii. oo

r aye. ■+

I IICU. UCIUU/£-Ut. I

TURNER v. MSPB

wishes to proceed before the Board.” Id. (citing Dixon v.
Off. of Pers. Mgmt., 44 M.S.P.R. 331, 335 (1990)).
The administrative judge also stated that, unless the
appellant notified the administrative judge “in a writing to
be received no later [than] December 13, 2016, that he [did]
not wish to withdraw his appeal,” the administrative judge
iss the appeal as withdrawn, with prejudice to
would “d
refiling regarding the same issue.” Id. (emphases re­
moved). Mr. Turner did not respond, and on December 21,
2016, the administrative judge dismissed the appeal with
prejudice as withdrawn. Mr. Turner did not petition for
review by the full Board, and the administrative judge’s de­
cision became the Board’s final decision on January 25,
2017. See 5 C.F.R. § 1201.113. Mr. Turner did not appeal
to this court.
On November 17, 2019, Mr. Turner filed another ap­
peal with the Board that again appeared to raise a claim
under the Veterans Employment Opportunities Act of
The administrative judge presiding over
1998.
Mr. Turner’s 2019 appeal ordered Mr. Turner to submit a
statement containing certain information so that the ad­
ministrative judge could determine “whether the Board
ha[d] jurisdiction over [Mr. Turner’s] appeal and whether
the exhaustion and timeliness requirements [had] been
met.” SAppx 39. In response, Mr. Turner submitted a new
complaint form for the Department of Labor dated October
15, 2019, asserting basically the same allegations as in his
2016 complaint to the Department of Labor. Mr. Turner
submitted his new complaint to the Board, but he provided
no indication the Department of Labor had acted on his
new complaint. He did provide a copy of the letter from the
Department of Labor dated September 20, 2016, acting on
his 2016 complaint.
The administrative judge determined that Mr. Turner
was seeking to relitigate the “same [Veterans Employment
Opportunities Act] issues he withdrew in December, 2016.”

v^aoc. £-\j“ i uju

U/UUUII SOI II. uu

r aye.

I II^U. V£-/VO/£A/C. I

M

5

TURNER V. MSPB

Id. at 4. The administrative judge pointed out that
Mr. Turner had withdrawn his 2016 appeal, which was
then dismissed with prejudice. Accordingly, the adminis­
trative judge dismissed Mr. Turner’s 2019 appeal for lack
of jurisdiction. Again, Mr. Turner did not petition for re­
view by the full Board, and the administrative judge’s de­
cision became the final decision of the Board on April 6,
2020. 5 C.F.R. § 1201.113.
Mr. Turner appeals. We have jurisdiction under 5
U.S.C. § 7703(b)(1) and 28 U.S.C. § 1295(a)(9).
Discussion
Our review of Board decisions is limited by statute. We
are permitted to set aside Board decisions only if we find
that they are (1) arbitrary, capricious, an abuse of discre­
tion, or otherwise not in accordance with law; (2) obtained
without procedures required by law, rule, or regulation
having been followed; or (3) unsupported by substantial ev­
idence. 5 U.S.C. § 7703(c). “Whether the [B]oard had ju­
risdiction to adjudicate a case is a question of law, which
we review de novo.” Forest v. Merit Sys. Prot. Bd., 47 F.3d
409, 410 (Fed. Cir. 1995).
Under the Board’s precedent, “[t]he withdrawal of an
appeal is an act of finality that removes the appeal from
the Board’s jurisdiction.” Dixon, 44 M.S.P.R. at 334—35.
“[T]he Board will not reinstate a withdrawn appeal absent
unusual circumstances such as misinformation or new and
material evidence.” White v. U.S. Postal Serv., 95 M.S.P.R.
220, 222 (2003).
Mr. Turner contends that the Board’s 2016 rulings de­
clining to find jurisdiction based on the then-existing rec­
ord were erroneous, and these erroneous rulings compelled
him to dismiss the appeal. However, he does not dispute
that his 2019 appeal raised the same issues as his 2016 ap­
peal, nor does he dispute that he withdrew his 2016 appeal.
Mr. Turner also does not make any showing that he had

uase: <cu-1 oou

6

uuuumeni: oo

rage; o

rneu; u^/uo/^u<i i

TURNER v. MSPB

raised new and material evidence that might justify rein­
stating his case.3
Mr. Turner instead asserts that he thought that his
withdrawal with prejudice in 2016 would affect only “the
particular case with that Administrative Judge.” Pet’r’s
Informal Reply Br. 5. Mr. Turner also argues that the ad­
ministrative judge who presided over the 2016 appeal
“failed to give [Mr. Turner] a better understanding of the
impact” of a dismissal with prejudice. Id. at 6. We disa­
gree. The December 6, 2016, order explained that “the
withdrawal of an appeal is an act of finality that removes
the appeal from the Board’s jurisdiction,” and that “[t]he
Board will give effect to an appellant’s withdrawal of an
appeal and, in the absence of unusual circumstances such
as misinformation or new and material evidence, it will not
reinstate an appeal once it has been withdrawn merely be­
cause an appellant now wishes to proceed before the
Board.” SAppx 53.
Mr. Turner also invokes the doctrine of equitable toll­
ing. The doctrine has no applicability here, where no limi­
tations period is at issue, and in any case Mr. Turner
provides no ground for equitable tolling.
The Board’s dismissal of Mr. Turner’s appeal for lack
of jurisdiction was proper. Accordingly, the Board’s deci­
sion is affirmed.

3 “New and material evidence or legal argument is
available that, despite the petitioner’s due diligence, was
not available when the record closed. To constitute new
evidence, the information contained in the documents, not
just the documents themselves, must have been unavaila­
ble despite due diligence when the record closed.” 5 C.F.R.
§ 1201.115(d) (criteria for the Board in granting a petition
for review).

oase: z.u- idou

uouumeru: oj

rage:/

7

TURNER V. MSPB

AFFIRMED
Costs
No costs.

rnea: u^/uo/^u^ i

Case: 20-1650

Document 17

Page: 80

Oepartmeni of Labor

Filed: 07/23/2020

ft*
Jacftson fzs, 33213
Phene: <8011321-5233
FAX: (SC1J 321-3137
Smith.Rnhprfm-^. ■

Su|iieniber20.2016
Oregon. Turner

Ivii: ) unicr. Gregory
1N-20 J 6-tJfMH 9-VpR
l>esa* Mr. Turner:

Uk >'"*■<■**- Therefore,
Systems Prolecliou &id SlSS'SdE'^SSh^ ^to ;|PP«*! >our case to she N;eri,
fHdC?T

h

7* ^ MSPH

v'ou

'"^oiWip, ofllas kuef

In your case* -vour “PIWS‘1 inusi be seiji in.
Atlanta Regional Office.

4oT\vSp‘T* ,*rotcctl“« »«a«L

S5nc^/-g
n>T

lmesfloaior

Working for America’s

SAppx61

Woi

O^- Dcpnrtmcnt of I-»t»nr_ Veterans’ Emnlnvmrat nil Training Smlft
v~

Mail (or FAX) to:
Veterans’ Employment and Training Service
U.S. Department of Labor

Phone: (866) 4-USA-DOL ((866>487-2365))
FAX: (404)562-2313

ATI'KWTKTW: Form IflIO

61 Forsyth Street, S.W., Room 6T8S
Atlanta, Georgia 30303
PI.EASF. TYPE OH PRINT_________________________
Section I; Chlmtnt fnfonwagap
1. Name:

Gregory

Tomer
LastName

2. Address:

First Name

5379 RiverStone Drive Memphis, Tennessee381254348
Street
412152839

3. Social Security No:
6. Email Address:

MX

City

4. Home Phone:

State

901-267-2071

FembankIane@yahoo.com

5. Cell Phone

ZIP

901-267-2071

7. Do you have a military service-connected disability?

(X] Yes QNo

Section II: Uniformed Service Information
8. Scrvc(d) h: fl/Vir National Guard FlAnny National Guard IHtany Reserve flArr Force Reserve
f~]Naval Reserve
□Marine Corps Reserve 000351 Gnaid Reserve QArmy
^Air Force
QNavy
□Marine Corps
gjjCoast Guard
□FUUic Health Service □other (Esplain in “Comments”)
□None (Retaliation Claim - Explain in “Comments”)
9. If Rcserve/National Gnard:
(a)

Name of Unit_____

(b) Unit Address:
(c)

Unit Phone:

__________

10. Dates ofService (Ifapplicable):

(a) From:
OR

11. Type ofDischarge or Separation.

To: £_

(b) Date ofExamination/Rejection for Service:________________

gi Honorable Conditions □ Entry Level □Unchaiacterized □Medical □ Other than Honorable
1~1 Other (Explain in “Comments”) Q Not Applicable

i
Section ID: Employer Information
12. Employer or Prospective Employer's Name:
13. Address: 555 South B.B. King Blvd
Street

A?P£a/Q/\

United Stales Postal Service

- Memphis, Tennessee

38101

City

14. Principal Employer Contact (PEC):
(a) PEC Name/Title:__________‘Reginald Capers
15. Employment Dates (Ifapplicable):

From:

(b) PEC Phon
06/21/1986

To:

Picacnt

16. Since beginning work with this employer, has your cumulative uniformed service exceeded S
IfYES, explain m Comments box at end ofthis claim form
17. Name of Union(s) That Represent You:

National Association ofLetter Carnets

18.^Tilieofthe Position or Occupation that is related to your claim (thejob that you either now I

Section IV: Claim Information
19. Was the Employer Support of the Guard and Reserve (ESGR) involved in handling your claim initially?

□ Yes □ No

Use items #20 and #21 to identify the program(s). (NOTE: Most claims - but not all - apply to only one program.)
. For this claim to apply only to Veterans’ Preference (VP) in Federal Employment: Complete item #20, and skip #21.
Skip item #20, and complete #21.
• For this claim to apply only to USERRA:........................................ ...............
Complete both items #20 and #21.
. For this claim to apply to both VP and USERRA:..........................................
20. Veterans’ Preference Issue (Check One): ^Hiring CD Reduction-in-Force (RIF)
21. USERRA Issuefsl: flMilitarv Obligations Discrimination CDReinstatement rilnitial Hiring Discrimination
_ Discrimination as Retaliation for any Action MStatus J~lPav Rate flSenioritv QOther Non-Seniority Benefits
_ Pension CD Layoff fTPromotion nVacation ["DUcalth Benefits [{Special Protected Period Discharge
_ Reasonable Accommodations/Retraining for Disabled l~lReasonable Accommodations/Retraining for Non-Qualified/Non-Disabled llOther
If Claim Concerns Hiring, Promotion, RIF or Termination
22. Title of Position Held or Applied For:
23. Pay Rate:

City Letter Carrier

Hourly

24. Date of Application Employment/Promotion: ____
(a) Vacancy Announcement Number: _____
(b) Date Vacancy Opened: ______________

(c) Date Vacancy Closed:

If Claim Concerns Reemployment Following Service
25. Was Prior Notice of Service Provided to Employer?

□ Yes J~] No (If “No,” Explain in Comments)

26. (a) Who Provided Notice of Service to Employer1?

□ Self □ Other (name): ________________

(b) Was the Notice of Service:

□ Written □Oral □Both

(c) Date Notice of Service was given to Employer:
27. Name/Title of Person to Whom Notice of Service was Provided:
28. Date Applied for Reemployment: __
29. Reemployment Application Made To:
30. Reemployed or Reinstated?

OR Date Returned to Work:
Name:

Title:

□ No

□ Yes (date):

at what pay rate?

(a) If YES, what position? ______________
(b) If NO, Date denied: ________________

Reason(s) given:

(c) Who denied (Name and Title): ________
PUNISHMENT FOR UNLAWFUL STATEMENTS
The information provided in this complaint will be utilized by the U.S. Department of Labor, Veterans’ Employment and Training Service (VETS) to initiate an investigation of alleged
violations of the Uniformed Services Employment and Reemployment Rights Act (USERRA) Title 38, U.S.C., Sections 4301-4335; and/or the Veterans’ Preference (VP), provisions of
the Veterans Employment Opportunities Act of 1998 (VEOA), 5 U.S.C. §3330a-3330c. Potential claimants should keep in mind that it is unlawful to "knowingly and willfully”
make any “materially false, fictitious, or fraudulent statements or representation” to a federal agency. Violations can be punished under Section 2 of the False Statements
Accountability Act of 1996 by a fine and/or imprisonment of not more than 5 years. 18 U.S.C. § 1001.
I certify that the above information is true and correct to the best of my knowledge and belief. I authorize the U.S. Department of Labor to contact my employer or any other person for
information concerning this claim. I further authorize my employer or any other person to release such information to the U.S. Department of Labor. Pursuant to 5 U.S.C., Section
552a(b) of the Privacy Act, I authorize the U.S. Department of Labor and the U.S. Department of Defense to release information and records necessary for the investigation and
prosecution of my claim.
SIGNATURE:

DATE:

10/12/2019

Persons are not required to respond to the collection of information unless it displays a currently valid OMB control number. Public reporting burden for this collection of information is
estimated to average 30 minutes per response, including the time for reviewing instructions, searching existing data sources, gathering and maintaining the data needed, and completing
and reviewing the collection of information. Send comments regarding this burden estimate or any other aspect of this collection of information, including suggestions for reducing this
burden, to the U.S. Department of Labor, Veterans’ Employment and Training Service, Room-S1316,200 Constitution Avenue, N.W., Washington, DC 20210.
NOTIFICATION OF USERRA CLAIMANT’S RIGHTS
For claims arising under USERRA, a person has a right to commence an action for relief directly against the employer in the appropriate federal district court (in the case of a complaint
against a State or private employer), pursuant to 38 U.S.C. § 4323(aX3), or die Merit Systems Protection Board (in the case of a complaint against a Federal executive agency or the
Office of Personnel Management), pursuant to 38 U.S.C. § 4324(b).
PRIVACY ACT STATEMENT
The primary use of this information is by staff of the Veterans’ Employment and Training Service in investigating cases under USERRA or laws/regulations relating to veterans’
preference in Federal employment. Disclosure of this information may be made to: a Federal, state or local agency for appropriate reasons; in connection with litigation; and to an
individual or contractor performing a Federal function. Furnishing the information on this form, including your Social Security Number, is voluntary. However, failure to provide this
information may jeopardize the Department of Labor’s ability to provide assistance on your claim.
Continue in Comments box &/or use additional sheet(s) to explain items if needed — Sign and date form (above)
OMB NO. 1293-0002 (EXP 01/31/2020
VETS/USERRA/VP Form 1010 (REV 12/2013) - Page 2

Explain your claim in detail - List all remedies you seek
Use additional sheets) if needed - Initial & date each page at bottom
Comments:

I contacted my Employer the U.S. Postal Service in August 2019 to
discuss how many years they will keep me out of the work place and
v. hy I havn’t hearld from them concerning anything. I was order to
leave the U S. Postal Service in September 2014. It has been 5 yrs.
The U.S. Postal Service refuse to charge me so I can exercise my
rights to due process to reslove whatever the situation is. I am a
30% Service Connected Disabled Veteran. I want to use my rights
under the Veterans Preference Act of 1944.
This is a Prohibited Personnel violation. The Office of Personnel Man
agment clearly states than any ADVERSE ACTIONS, says this
Preference eligibles have protections against adverse actions, inclu
ding demotion, suspension for more than 14 days, furlough for 30
days or less, and removal. These protections include advance notice
a reasonable time to respond, representation by an attorney or other
person, a final written decision, and an appeal right to Merit Systems
Protection

I am seeking restitution for the malicious act, Compensatoiy Damage
and Punitive Damages. This has ruined my heath and my life.

INITIALS:

GT

DATE:

10/15/19

Mail (or FAX) to:
Veterans' Employment and Training Service
U.S. Department of Labor
ATTENTION: Form 1010
61 Forsyth Street, S.W., Room 6T85
Atlanta, Georgia 30303

Phone: (866) 4-USA-DOL ((866)-487-2365))
FAX: (404) 562-2313

OMB NO. 1293-0002 (EXP 01/31/2020)
VETS/USERRA/VP Form 1010 (REV 12/2013) - Page 3

im IJUL79

riu.* ivua vwim/nw xjr mid
FORM ARE OBSOLETE.

2C04

. NWtfiast, first, traddlsj

uniiriutic ur ncuwifrux
FROM ACTIVE DUTY
A**

7. DEPARTMENT. COMPONENT AND BRANCH

TURNER, GREGORY, RMN
a. GRADE.-RATE OR RANK

4b. PAY GRADE

SR *

X SOCIAL SECURITY NO.

TRANSPORTATION - USCG
5. DATE OF BIRTH

E-l

412

62 09 02

MEMPHIS, TN

. LAST DUTY ASSIGNMENT AND MAJOk COMMAND

8. STATION WHERE SEPARATED

USCG TRAINING CENTER, CAPE MAY NJ

PSCG TRAINING CENTER, CAPE MAY, NJ

COMMAND TO WHICH TRANSFBIRED

10. SGU COVERAGE
AMOUNT S ?fT

S/A
i PRIMARY SPECIALTY NUMBER. TITLE AND YEARS AND
MONTHS IN SPECIALTY (Additional specialty number* and titles
.Tansf periods of'me or more year*}

"A S

X

A

X

X

>2. RECORD OF SERVICE

YEAR (sj

A Dole Entered AD This Period

79
79
00
00
00
00
00
79
00

b. Scpoiolion OaTo This Period

X

Ks Active Service This Period

X

A

. *1 Ttfsi rhcr Active Service

X

A

: f. To!-. Frier Inactive Service

X

X

X

X

X

fi foreign Service

X

£. Sec Servxe

X

X

| 15 | 2839

6. FIACE OF ENTRY INTO ACTIVE DUTY

X

X

X

X

h. Effective Dc'e of Pay Grode

___________ _______ ________________ ________________________
t i. Reserve Cb::g. Term. Dote
I- DECORATIONS. MEDA1S. BADGES. OTATION5 AND CAMPAIGN RIBBONS AWARDED OR AlTn~rsK7zn.-^=:7^.^r c---r^TZT

OOP

|

| NONE

MON (s)

DAY (s)

m

01

11
11
00
00
00
00
01
00

12
02
00
00
00
00
10
00

N0NE

X

x

x

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

1. MILITARY EDUCATION (Course Title, number specks, and month and jtar completed)

NONE
X

X

X

x

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

. X

X

MEMBER CONTRIBUTED TO POST-VIETNAM ERA
VETERANS' EDUCATIONAL ASSISTANCE PROGRAM I
i
I. REMARKS

j YES

□

16. HIGH SCHOOL GRADUATE OR EQUIVAIENT

I jtIyb

NO

17. DAYS ACCRUED
LEAVE PAID

I iNO

NONE

DD FORM 214 ADMINISTRATIVELY REISSUED AT COAST GUARD HEADQUARTERS: 12 JUNE 1986
HOME OF RECORD AT TIME OF ENTRY ON ACTIVE DUTY: MEMPHI
PLACE OF BIRTH: MEMPHIS, TN
x
X
X
X
x

X

X

X

X

X

X

X

X

X

X

x

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

X

*

e

». mailing address after separation

1529 S. MONTGOMERY
MEMPHIS, TN 38106

^StafofllRE Of /MEMBER BEING SEPARATED

22. TYPED NAME.

Jyb

E. TTTUE AND S
GN

w.yj.

ISON, LCDR, USCG

rS30 00-F02-2740

TYPE OF SEPARATION

j

......

MEMBER-1
SPECIAL ADDITIONAL INFORMATION (hu use fry authorized agencies only'
74 CHARACTER of SERVICE (Includes upgrades)

*IST.ffAftGK
SEPARATION AUTHORITY

7b, SEPARA

27. REENUSTMENT CODE

-JHD

HB-1
I 30. MEMBER REQUESTS COPY 4

"TF"

:I

.iNTTSUS

MEMBER-4

I

DEPARTMENT OF VETERANS AFFAIRS
810 Vermont Ave NW
Washington, D.C. 20420
August 22,2019
Gregory Turner
5379 Riverstone Dr
Memphis, TN 38125

In Reply Refer to:
XX-XX1-326

27/eBenefits

Dee’ Mr. Turner.
This letter is a summary of benefits you currently receive from the Department of Veterans Affairs (VA). We are
providing this letter to rfisabled Veterans to use in applying for benefits such as state or local property or vehicle tax
relief, civil service preference, to obtain housing entitlements, free or reduced state park annual memberships, or
any other program or entitlement in which verification of VA benefits is required. Please safeguard this important
document. This letter is considered an official reoord of your VA entitlement.
Our records .contain the following information:

:•

Personal Claim Information
Your VA claim number is:xx*xt326
You are the Veteran.

Military Information ;
Your most recent, verified periods of service (up to three) include:
Branch of Service
Coast Guard

Characterof Sendee/.
. Honorable

Entered Active Duty
; October 01,1979

Beteased/Dtacharged
December 11,1979

(There may be additional periods of service notGsted above.)

VA Benefit Information
You have one or more service-connected disabilities:

Yes

Your combined service-connected evaluation is:

30%

Your current monthly award amount Is:
The effective date of the test change toyour current award nas:
You are conddaed to be totally and permanently disabled due sof''1**
service-connected dlsablllries:
You should contact your state or local office of Veterans' affairs for informatk
benefits for which you may be eligible. State offices of Veterans' affairs are a
htto://www.va.aov/statedva.htm.

How You Can Contact Us
♦ If you need general information about benefits and eligibility, please visi
htto://www-va.aQV.
• Call us at 1-800-827-1000. If you use a Telecommunications Device for
829-4833.

December 01,2018
WMIV

t f\ ffif/D'/K

